PROOF OF SERVICE
I. the undersigned, hereby declare as follows:
cause. I am a resident of the
22815
Ventura Blvd, Woodland Hills, Ca 91364.
On January 25, 2020 ’

I served the foregoing Proof of Service of (three copies -booklets
- jtion for Writ of Certiorari and (three copies-

booklets and one copy 8.5x 11 inch cop^,.
p , d in a sealed envelope
the United States’ mail in the chy of Los Angeles.
California.
Attorney of record for Respondents.
Solicitor General of the U.S.
Room 5616, Department of Justice
950 Pennsylvania Avenue
N.W. Washington, D.C. 20530

Razmik Davidson

